HHS/OIG, Audit -"Review of Potentially Excessive Medicare Payments - Empire Medicare Services,"(A-01-02-00526)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Potentially Excessive Medicare Payments - Empire Medicare Services," (A-01-02-00526)
June 24, 2003
Complete
Text of Report is available in PDF format (453 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to identify potentially excessive Medicare payments made to institutional providers for
outpatient and Part B services during Calendar Years 2000 and 2001.  Based on a computer application, we identified
outpatient claims and inpatient claims reimbursed under Medicare Part B that had paid amounts equaling or exceeding $50,000.  Further
analysis identified isolated instances when the number of service units or amounts billed appeared to be excessive or unsupported.  In
this respect, Empire Medicare Services initiated recovery action for three claims totaling $179,510.